        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Management of the National
Nuclear Security Administration's
Classified Enterprise Secure
Network Project




DOE/IG-0823                      September 2009
                              Department of Energy
                                Washington, DC 20585

                                   September 16, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Audit Report on the "Management of the
                          National Nuclear Security Administration's Classified Enterprise
                          Secure Network Project"

BACKGROUND

In June 2000, recently enacted legislation directed the National Nuclear Security
Administration (NNSA) to "perform planning, analysis, testing and evaluation necessary
to develop the highest value alternatives for improving cyber security throughout the
Nuclear Weapons Complex." In response, NNSA began the Integrated Cyber Security
Initiative. Through the initiative, NNSA's Enterprise Secure Network (ESN) was
developed. ESN was intended to be the primary network for sharing classified
information within NNSA by: ensuring the protection of nuclear weapon and other
national security information; supporting the NNSA mission; and, replacing NNSA's
existing classified network, SecureNet.

Over time, the Office of Inspector General has identified many concerns regarding the
design of Department management information system networks, including numerous
cases where Department projects have been completed behind schedule and/or have
exceeded their established budgets. For example, a 2001 audit of the Department's
Telecommunications Infrastructure (DOE/IG-0537) highlighted the existence of
duplicative data transmission infrastructures across the Departmental complex. Because
of the importance of effectively managing information technology projects and
controlling classified electronic information, we initiated this audit to determine whether
the NNSA ESN project was adequately managed and was meeting its intended goals and
objectives.

RESULTS OF AUDIT

We found that neither the planning for nor execution of the ESN project had been
effective. Furthermore, this process had led to a system which did not meet certain pre-
established goals and objectives:

      Despite nine years of development and the expenditure of at least $153 million,
       ESN only recently became fully operational. This was three years after its
       planned completion date. While capable of transmitting classified data,
                                            2

       approximately 150 software applications used for classified processing had not
       been certified or approved for operation on the network; and,

      Although initially justified and planned as the network provider for all of NNSA's
       Advanced Simulation and Computing (ASC) supercomputers and other classified
       systems, the network lacked sufficient capacity for such traffic. This necessitated
       the continued operation and maintenance of separate classified networks.

These issues were attributable, in large part, to problems with planning and management
of the ESN effort. For example, in spite of Department requirements to the contrary,
ESN planning and development did not incorporate project management controls and
protections required for efforts anticipated to cost more than $20 million. As a result,
NNSA had not properly tracked project costs for the first seven years of the development
effort. In our judgment, the lack of visibility over costs most likely contributed to a
recent announcement by NNSA that the project had been completed for $60 million
when, in fact, it would have been more accurate to acknowledge that over twice this
amount, more than $153 million, had been expended on the effort since inception.

Because of the lack of project management rigor, senior NNSA management officials
were deprived of the information necessary to ensure that the ESN initiative was properly
planned and executed, apply generally recognized best practices, and to properly track
project costs. In addition, because of delays in ESN becoming operational, certain other
NNSA initiatives dependent upon it, including ongoing efforts to standardize and
consolidate weapons data and enforce need-to-know access across the NNSA complex,
had been adversely impacted. Without general improvements in project management,
future NNSA information technology projects, including these designed to enhance and
upgrade ESN, may continue to experience delays and higher than necessary costs.

Beginning in 2006, NNSA made an effort to improve project oversight by developing
limited ESN documentation and instituting cost tracking. While helpful, these actions did
not ensure that ESN and similar projects were adequately managed throughout their
lifecycle, providing good taxpayer value. Ensuring that projects are based on sound
project management principles and that they closely adhere to cost and schedule controls
are attributes that will be critical as the Department continues its implementation of the
American Recovery and Reinvestment Act of 2009. In these challenging economic and
budget times, taxpayers should expect that projects such as ESN and other significant
efforts are well managed and provide good value. Accordingly, we have made
recommendations, which if fully implemented, should help increase the return on
investment of ESN and future NNSA information technology related projects.

MANAGEMENT REACTION

NNSA management concurred with our recommendations and stated that they believed
several actions taken recently will improve the program's project management
capabilities. However, they did not agree with the report's conclusions in a number of
areas. While we consider management's recent actions to be positive steps, we feel that
                                             3

more improvement is needed to ensure that ESN and other major information technology
projects are adequately managed throughout their lifecycle. Management's comments,
which are significant, are more fully discussed in the body of this report and are included
in Appendix 3.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Administrator, National Nuclear Security Administration
    Chief Information Officer
    Chief Information Officer, NNSA
REPORT ON THE MANAGEMENT OF THE NATIONAL NUCLEAR
SECURITY ADMINISTRATION'S CLASSIFIED ENTERPRISE
SECURE NETWORK PROJECT


TABLE OF
CONTENTS

Enterprise Secure Network Project Management

Details of Finding ............................................................................................................................1

Recommendations and Comments...................................................................................................7


Appendices

1. Objective, Scope, and Methodology........................................................................................13

2. Related Reports........................................................................................................................14

3. Management Comments ..........................................................................................................16
The Management of the National Nuclear Security Administration's
Classified Enterprise Secure Network Project

Enterprise Secure     The National Nuclear Security Administration's (NNSA)
Network Project       Classified Enterprise Secure Network (ESN) project had not
Management            been effectively planned and executed and was not meeting
                      certain goals and objectives. Specifically, we identified issues
                      in the timeliness of project implementation, accounting for
                      project costs, and in meeting all planned project goals and
                      objectives.

                                      Project Functionality and Costs

                      After nine years of development and expenditures totaling
                      about $153 million, ESN only recently became fully
                      operational – over three years after its estimated completion
                      date. An internal project tracking system established during
                      the early stages of the project determined that all aspects of the
                      network, including full operation at each of the NNSA sites
                      minus certain limited functionality, were to be completed by
                      2006. However, none of ESN's sites were operational in 2006.
                      Furthermore, at the time we completed our audit work, no sites
                      were using ESN for its intended purpose, to transmit classified
                      data between sites. Specifically, all site network connections
                      had not been completed and only limited production data was
                      being transmitted over ESN. Only recently, after the
                      completion of our field work, was ESN made fully operational.
                      While now capable of transmitting classified data, the
                      compatibility of the estimated 150 applications that would be
                      running on ESN had still not been completely reviewed to
                      ensure their use on the network would not create security
                      issues.

                      Even though specifically required by Department of Energy
                      (Department) project management directives for projects of
                      this cost and magnitude, NNSA Headquarters did not track all
                      costs associated with ESN. NNSA officials were unable to
                      provide an accurate accounting of costs for the ESN project.
                      Although we identified an internal project tracking system
                      developed in 2003 that estimated it would cost $116 million to
                      complete the project, officials acknowledged that historically,
                      ESN expenditures were not captured separately, but instead
                      were tracked as part of overall cyber security spending. A
                      specific reporting code for the tracking of ESN funds was not
                      designated by NNSA until fiscal year (FY) 2006 – seven years
                      into the project.




________________________________________________________________
Page 1                                            Details of Finding
                      Nonetheless, an NNSA official recently reported an on-budget
                      completion of the ESN project, with expenditures of
                      approximately $60 million. We were unable to determine, and
                      management could not supply information to support how the
                      reported cost of $60 million was calculated. In contrast, based
                      on varying information provided by NNSA, we calculated that
                      costs for the project incurred by the end of our review ranged
                      between $153 million and $180 million. Specifically, based on
                      summaries of project funding received between FY 2000 and
                      FY 2008, we calculated $153 million – approximately 155
                      percent more than reported and 32 percent over budget – had
                      been spent to develop the network. Furthermore, officials
                      associated with the project at its inception stated that,
                      beginning in 2000, $20 million per year was set aside for the
                      development of the network – totaling $180 million. We noted
                      that an additional $33 million had been requested for FY 2009,
                      a portion of which was for continued development and
                      enhancement of the network.

                                      Network Goals and Objectives

                      Although ESN was initially funded and approved on the basis
                      that the network would contain specified capabilities, such as
                      the ability to handle all NNSA classified network traffic,
                      including classified data from the Advanced Simulation and
                      Computing (ASC) supercomputers, project managers
                      subsequently made the decision to scale back the project's
                      scope. This decision resulted in ESN being constructed
                      without the necessary capacity to handle all NNSA classified
                      data. Such action required the continued use of a separate
                      network infrastructure for the ASC supercomputer traffic.

                      The ESN Program Management Plan, originally developed in
                      2004 and updated in 2007, acknowledged that maintaining
                      separate secure infrastructures weakens security by adding
                      unnecessary complexity; thus leading to different, costly, and
                      potentially incompatible solutions. Specifically, the Program
                      Management Plan stated that NNSA's Integrated Cyber
                      Security Initiative "… coordinates with core NNSA initiatives,
                      campaigns, and programs, including ASC and ADAPT, to
                      ensure that the secure infrastructure and environments needed
                      by the NNSA activities are available. Without the ESN, each
                      activity would be responsible for providing its own secure
                      infrastructure thus leading to different, costly, and likely
                      incompatible solutions. Separate secure infrastructures would

________________________________________________________________
Page 2                                            Details of Finding
                       also substantially weaken security by adding unnecessary
                       complexity to the networks and inhibiting the secure sharing of
                       information among the NNSA programs." In spite of this
                       acknowledgment and understanding, decisions to limit capacity
                       of ESN will require that NNSA and the Department program
                       offices continue to maintain multiple infrastructures to transmit
                       classified data.

Management Attention   NNSA did not meet its initial objectives for the ESN project or
and Oversight          implement the network in the most effective manner
                       because management did not focus sufficient attention on
                       implementing project management requirements and generally
                       accepted best practices for projects of this magnitude. Also, it
                       did not have in place strong management oversight over project
                       costs and development.

                                            Project Management

                       NNSA management had not adhered to established project
                       management requirements and generally accepted best
                       practices to effectively manage the ESN project over its
                       lifecycle. To ensure goals are met, the Department requires all
                       projects with costs expected to exceed $20 million to pass five
                       specific milestones, known as Critical Decisions, in the areas
                       of Mission Need, Alternative Selection, Performance Baseline,
                       Construction, and Start of Operation. To gain approval at each
                       Critical Milestone to proceed to the next phase, specific
                       documentation requirements must be met. However, certain
                       project documentation essential for effective management had
                       not been developed, consistently maintained and/or approved
                       for ESN. Although the project was initiated in late 2000, much
                       of the documentation was developed after 2006, by which time
                       the project had already received over $100 million and was to
                       have originally been completed. Specifically, we identified 36
                       studies, decision points, or evaluations required by Department
                       project management regulations and applicable to the ESN
                       project, 26 of which had not been completed and 9 that were
                       completed in 2006 or later. For example:

                             An acquisition strategy had not been developed to
                              describe the high-level business and technical
                              management approach designed to achieve project
                              objectives within specified resource constraints. The
                              acquisition strategy must be approved by the Program
                              Secretarial Officer and conveys the project team's
                              approach for the successful acquisition of the project,

________________________________________________________________
Page 3                                            Details of Finding
                             its intended outcomes, and the rationale for that
                             approach. Additionally, it is a critical project
                             management tool since it serves as the framework for
                             planning, organizing, staffing, controlling and leading a
                             project;

                            Project performance baselines had not been formally
                             established, validated, and adjusted as needed for key
                             parameters such as schedule, cost and scope. Although
                             early project management tools contained a project
                             timeline and cost estimate, these were not revisited and
                             adjusted for changes after 2005. Performance baselines
                             are critical to enable management to effectively track
                             the project and determine whether it is being delivered
                             on time and within estimated costs;

                            A Project Execution Plan had not been developed to
                             establish the initial policy and procedures to be
                             followed to manage and control the project, including
                             information regarding the organization of and schedule
                             for the project. One key element included in the Project
                             Execution Plan is the critical path which determines the
                             tasks that must be completed or partially completed
                             before other tasks begin and assists in ensuring that the
                             project is executed in a timely manner; and,

                            An Earned Value Management System (EVMS) had
                             not been utilized by the project team. The Department
                             requires that all projects having a Total Project Cost
                             greater than or equal to $50 million use an EVMS. An
                             EVMS integrates the technical, schedule and cost
                             aspects of a project and provides integrated
                             performance measurement for monitoring and
                             controlling the project.

                      Also, documentation provided by NNSA contained conflicting
                      information, such as varying site lists for connectivity and
                      inconsistent connectivity schedules. Specifically, we noted
                      that documentation detailing sites scheduled for connection to
                      ESN ranged from 9 to 12 sites.

                      Additionally, the ESN project lacked the executive level
                      management attention necessary to increase the likelihood of
                      success. Successful performance of Department projects
                      depends on professional and effective project management by
                      the Federal Project Director. The appointment of the Federal

________________________________________________________________
Page 4                                            Details of Finding
                      Project Director is one of the activities in Critical Decision 1,
                      Approve Alternative Selection & Cost Range. This individual
                      must champion the project and ensure it meets cost, schedule
                      and performance targets. The project director must also
                      establish and charter an Integrated Project Team. We noted
                      that such a team had not been chartered for the ESN project.

                      DOE Order 413.3A, Program and Project Management for the
                      Acquisition of Capital Assets, requires project directors to be
                      certified to ensure that projects are managed with integrity and
                      in compliance with applicable laws. However, since the
                      project's inception, NNSA has assigned responsibility for ESN
                      to at least three different individuals, none of whom were
                      officially appointed to manage the project. Further, only one of
                      these individuals was a certified project manager. When
                      questioned regarding training levels, NNSA officials stated that
                      the current project manager was in the process of obtaining the
                      necessary certification.

                                              Project Tracking

                      Despite estimated project costs of more than $153 million, cost
                      information was not effectively tracked and reported
                      throughout the project's lifecycle. Specifically, Office of
                      Management and Budget (OMB) Exhibit 300s were not
                      consistently developed and submitted for the ESN project over
                      the past nine years. We noted that Exhibit 300s were submitted
                      until 2005, but were then discontinued until just recently when
                      a submission was made in 2008. Exhibit 300s are required of
                      all investments in excess of $5 million and are designed to
                      coordinate OMB's collection of agency information for its
                      reports to Congress required by the Clinger-Cohen Act of 1996.
                      Additionally, the Exhibit 300 helps ensure that the business
                      case for an investment is made and tied to mission statements,
                      long-term goals and objectives, and annual performance plans
                      developed pursuant to the Government Performance and
                      Results Act of 1993 (GPRA). ESN was also not consistently
                      captured in the agency's OMB Exhibit 53, which provides
                      summary information for all information technology (IT)
                      investments in an agency's investment portfolio. Information
                      in the Exhibit 53 allows OMB to review and evaluate each
                      agency's IT spending for comparison across the Federal
                      Government.

                      Similarly, the ESN project was not tracked in the Department's
                      Project Assessment and Reporting System (PARS) from its

________________________________________________________________
Page 5                                            Details of Finding
                      inception. The Department requires that all projects costing $5
                      million or more be tracked in PARS. This system is designed
                      to provide Department executive management with the
                      information necessary to properly oversee ongoing projects.
                      NNSA officials did not input ESN information into PARS until
                      October 2006, seven years into the project; however, this was
                      the only submission made. We also noted that although an
                      internal tracking system had been developed for distributing
                      time and deliverables over the life of the ESN project, it had
                      not been updated or maintained since September 2005, despite
                      continued delays in implementation and changes in project
                      scope.

Opportunities for     As a result of ineffective application of project management
Improvement           requirements and best practices, executive management was
                      unable to maintain visibility over and properly manage the
                      ESN project. In particular, management officials lacked up-to-
                      date information on project tracking data necessary to
                      determine if the project was being delivered on time and within
                      budget. NNSA officials also could not determine, based on
                      information available to them, if funds were being properly
                      spent and if resources needed to be reallocated. Based on a
                      comparison of project cost estimates and our analysis of costs,
                      we calculated that the ESN project had a cost overrun of at
                      least $37 million and was delivered three years beyond its
                      planned completion date. The ESN project should have been
                      completed in 2006 at an overall cost of around $116 million.
                      However, as noted above, the network only recently became
                      fully operational, and using conservative estimates, we
                      calculated that project costs totaled over $153 million.

                      Without improvements in project management, future NNSA
                      IT projects, to include enhancements and upgrades to ESN,
                      may continue to experience delays and higher than necessary
                      costs. For example, due to the lack of an acquisition strategy,
                      ESN network components were procured earlier than
                      necessary. As a result, project officials stated that some
                      hardware had become obsolete or reached the end of its
                      lifecycle and must be replaced prior to ESN being fully
                      operational at all sites. In addition, officials stated that
                      numerous enhancements will be added to ESN over the course
                      of the next few years. Officials added that they plan to
                      consider these future enhancements, such as the "Need-to-
                      Know" software application, as separate projects. This practice
                      may cause these project segments to fall under the
                      Department's project management and reporting thresholds.

________________________________________________________________
Page 6                                            Details of Finding
                     Supplemental guidance to OMB Circular A-11 allows agencies
                     to compartmentalize projects into smaller, more workable
                     sections; however, all segments must still be managed and
                     reported as one overall project.

                     Because of delays in completing ESN, program managers have
                     been unable to completely review the compatibility of
                     approximately 150 applications for use on ESN. These
                     applications are necessary for NNSA classified program
                     operations. In light of significant network changes brought
                     about by ESN and the absence of these reviews, NNSA
                     officials cannot ensure their use on the network does not create
                     security issues for NNSA's classified programs.


RECOMMENDATIONS      To help ensure the effective management of NNSA's Classified
                     ESN project and to ensure that project management
                     requirements and best practices are followed for all ongoing
                     and future IT projects, we recommend that the Administrator,
                     NNSA:

                        1. Adhere to existing Department requirements for
                           management, to include:

                               Development of a detailed project plan, which
                                contains timelines for key deliverables and
                                assignment of responsible individuals, for
                                completion of all remaining ESN development and
                                implementation tasks; and,

                               Accurate accounting for all project costs.

                        2. Complete and submit the documentation required by
                           OMB, as well as the Department, to include Exhibits
                           300 and 53; and,

                        3. Coordinate with other program offices within the
                           Department and the Office of the Chief Information
                           Officer (OCIO), to determine the most efficient and
                           effective way to meet the Department's classified
                           networking needs.

MANAGEMENT AND       While NNSA management concurred with the
AUDITOR COMMENTS     recommendations, they disagreed with certain conclusions
                     reached in the report. Management commented that corrective
                     actions had been initiated prior to the issuance of the draft

________________________________________________________________
Page 7                              Recommendations and Comments
                     version of the report. As a result, they stated that they believed
                     the intent of the recommendations had been met, and therefore
                     should be considered closed.

                     Although management's comments regarding actions taken are
                     noteworthy, they are not fully responsive to our
                     recommendations. In addition, as noted, we feel that the
                     recommendations should be forward looking and applied to all
                     ongoing and future IT projects. Therefore, we believe this
                     precludes the recommendations from being considered
                     complete and closed. However, we have modified the wording
                     of the recommendations to ensure that our intent to include all
                     IT projects is better recognized. Management's comments on
                     our recommendations are summarized below, followed by our
                     response.

                                        Report Recommendations

                     In response to Recommendation 1, management included
                     details regarding the corrective actions taken as an attachment
                     to their comments. The attachment listed 17 items that had
                     been put in place in the past year. These included the
                     establishment of a governance process; implementation of an
                     Earned Value Management (EVM) component; and the
                     development of several other components designed to
                     complement the operation of the network. For each of the
                     actions listed, additional consideration of approach or detail is
                     needed, certain activities are in formative stages, and
                     completion periods have either not been reached or were not
                     provided. For example, management did not state whether the
                     EVM tool they have procured was certified by the American
                     National Standards Institute (ANSI), as required by
                     Department directive. We noted that the process to receive
                     ANSI certification is lengthy. Also, we believe that 14 of the
                     19 items were integral to the successful development and
                     operation of the network and should have been implemented
                     much earlier, not during the final year of a nine-year
                     development effort.

                     With regard to Recommendation 2, management noted that the
                     ESN FY 2004 Exhibits 300 and 53 had been updated to reflect
                     the current status of the ESN project and cost associated with
                     the project. Management's actions in this regard are
                     noteworthy. Our recommendation in this area is meant to be
                     forward looking to help ensure that required OMB and
                     Department documentation, such as this, is completed and

________________________________________________________________
Page 8                              Recommendations and Comments
                     submitted consistently for all ongoing and future projects, as
                     necessary.

                     Management's comments were not responsive to
                     Recommendation 3. Therefore, planned actions for
                     coordinating still need to be addressed with other Department
                     programs performing NNSA mission-related work and the
                     Department's OCIO to determine the most effective way to
                     meet the overall classified networking needs. With such
                     actions, NNSA and the Department as a whole would be able
                     to take advantage of future opportunities for operational
                     savings, such as the connection of non-NNSA sites to ESN for
                     performing NNSA-related mission work.

                     Management also provided specific comments on the report.
                     Management's comments are summarized below, followed by
                     our auditor response. Management's comments are included in
                     Appendix 3.

                                          Project Development

                     Management commented that the report focuses solely on ESN
                     development over the past nine years, but does not include
                     other major components that were a part of the Integrated
                     Cyber Security Initiative (ICSI). In addition, management
                     contended that the report incorrectly noted nine years of
                     development and expenditures of at least $153 million for the
                     ESN project when, in fact, ESN took four years to complete
                     with actual cost to develop and deploy of approximately $70
                     million. Management explained that the difference between
                     these amounts was actually spent on developing the other
                     components of ISCI.

                     We agree that NNSA initiated the ICSI Program in response to
                     Congressional direction to improve its cyber security posture
                     and that the initiatives included all of the segments listed.
                     However, we believe that all of these activities were
                     undertaken in support of ESN; and, therefore, should have been
                     considered part of the overall project. Specifically, the
                     FY 2005 budget justification submitted to Congress stated that:
                     "The Integrated Cyber Security Initiative (ICSI) provides the
                     definition, planning, and design efforts for the development and
                     deployment of the NNSA enterprise-wide secure network
                     (ESN)." We also noted that the budget justification outlined
                     ten elements of ICSI, nine of which focused on ESN. As
                     indicated, the ICSI Program was initiated in 2000 in direct

________________________________________________________________
Page 9                              Recommendations and Comments
                     support of ESN. Thus we concluded that planning and
                     development of ESN actually began in late 2000 and ended in
                     FY 2009 when the network became operational – nine years
                     later. Furthermore, actual expenditures for development of
                     ESN as stated in the most recent Exhibit 300 (budget year
                     2010) – which management emphasized noted in its comments
                     had been updated and now reflected the current state of the
                     ESN project – totaled $153.14 million.

                                     Network Goals and Objectives

                     Management stated that as with its predecessor, SecureNet,
                     ESN supports only the control information needed to run the
                     bulk transfers between the supercomputers that are part of the
                     Advanced Simulation and Computing (ASC) Initiative. As
                     such, management stated that ESN was not intended to provide
                     the necessary bandwidth for the total ASC bulk transfer
                     requirements. As noted in the body of the report, the Program
                     Management Plan stated that the original intent of ESN was to
                     consolidate and replace numerous classified connections
                     throughout NNSA, including ASC. However, the initial plan
                     to consolidate all classified networks was subsequently
                     changed.

                                         Networked Applications

                     Management stated that the ESN Security Plan "grandfathered"
                     all of the existing applications and protocols in use at the time
                     the SecureNet Security Plan was retired (March 2009). This
                     was done to allow continued support for programmatic needs
                     during the infrastructure transition from SecureNet to ESN.
                     Management pointed out that certification and accreditation
                     (C&A) is the responsibility of the site hosting the application,
                     thus meeting its requirements. Management asserted that
                     reporting that "approximately 150 software applications" had
                     not been certified or approved for operation on the network
                     was factually inaccurate. We partially agree with NNSA's
                     position and have modified the report to better reflect our
                     position that the security review of applications should have
                     been performed prior to introducing them into the operating
                     environment.

                                         Management Attention

                     Management commented that the NNSA Management Council
                     received a quarterly progress and performance briefing from

________________________________________________________________
Page 10                             Recommendations and Comments
                     the ESN Project Manager. However, we believe that without
                     complete and accurate cost information, these briefings could
                     not have been fully beneficial to NNSA. In addition, an
                     essential element of IT project oversight is the Department's IT
                     Capital Planning and Investment Control (CPIC) Process. The
                     CPIC Process is intended to provide senior level visibility for
                     the Department's and NNSA's major IT investments to ensure
                     that they remain within cost and schedule baselines. The audit
                     team noted that, until recently, ESN was not part of this
                     process and when it began being tracked by the Department's
                     IT Council (in the 1st quarter FY 2009), it was given a score of
                     "Red" because no data was submitted.

                     Management also stated that the NNSA OCIO had two
                     independent reviews conducted, one in March 2006 that
                     concurred with the approach taken by the project lead to
                     implement ESN and a second review in March 2008 that
                     determined the project requirements had been completed.
                     However, in informal comments to our draft report,
                     management stated that as a result of the March 2006 review,
                     the CIO directed the project be restructured. Our review of the
                     March 2006 assessment disclosed that the review team felt that
                     the project was viable, but suggested several changes including
                     the establishment of a Project Management Office. As such,
                     we believe that management's assertion that the March 2006
                     assessment concurred with the approach taken by the Project
                     Lead to implement ESN is inconsistent with the results of that
                     assessment.

                                       Exit Conference Comments

                     During the exit conference to discuss management's comments,
                     NNSA officials provided additional observations regarding the
                     draft report. Officials believed that ESN had been effectively
                     managed by two project managers, but acknowledged that
                     project documentation and support had not always been
                     maintained or kept current. For example, officials stated that
                     although ESN had been re-baselined to exclude the ASC
                     supercomputers due to security concerns, project
                     documentation had not been revised to reflect this change.
                     Furthermore, NNSA officials indicated that a business decision
                     was made to permit about 150 software applications to operate
                     on ESN based on the accreditation that was granted for
                     SecureNet, the predecessor to ESN. They added that actions
                     were still ongoing to ensure that these applications fully satisfy
                     security requirements for operating on ESN. In addition, a

________________________________________________________________
Page 11                             Recommendations and Comments
                     Memorandum of Understanding was subsequently provided
                     relating to this decision. The officials also indicated that
                     significant progress had been made to satisfy the
                     recommendations contained in the report. One NNSA official
                     stated that the Office of Inspector General (OIG) was correct in
                     its assessment of the management of the ESN project,
                     including our determination that the project had been delivered
                     over budget and behind schedule. However, this official added
                     that despite initial problems, ESN largely achieved its expected
                     results.

                     The OIG supports NNSA management in its efforts to satisfy
                     report recommendations and thereby improve IT project
                     management, both on the ESN project and future efforts. In
                     reference to the certification documentation pertaining to the
                     aforementioned 150 software applications, we noted that the
                     SecureNet documentation was not dated and contained an
                     expiration date of March 31, 2009. Therefore, that certification
                     did not adequately support prior and current approval for
                     operating these applications on ESN. Furthermore, in light of
                     the significant network changes brought about by ESN,
                     consistent with Federal and Department requirements, these
                     150 applications should have either been certified prior to
                     operation on ESN or addressed in the certification letter signed
                     by the Designated Approving Authority supporting acceptance
                     of the risk on an interim basis and tracked in a plan of actions
                     and milestones until the risk was mitigated.




________________________________________________________________
Page 12                             Recommendations and Comments
Appendix 1


OBJECTIVE             To determine if the National Nuclear Security Administration's
                      (NNSA) Classified Enterprise Secure Network (ESN) project is
                      meeting its intended goals and objectives and is being
                      adequately managed.

SCOPE                 The audit was performed between May 2008 and May 2009 at
                      Department of Energy (Department) Headquarters in
                      Washington, DC, and NNSA Headquarters in Washington, DC.

METHODOLOGY           To accomplish the audit objective, we:

                            Reviewed applicable laws and directives pertaining to
                             project management;

                            Reviewed applicable standards and guidance issued by
                             Office of Management and Budget;

                            Analyzed NNSA-provided documentation pertaining to
                             the development and cost of ESN;

                            Held discussions with officials from the Department
                             and NNSA; and,

                            Reviewed reports by the Office of Inspector General
                             and the Government Accountability Office.

                      We conducted this performance audit in accordance with
                      generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objectives. Accordingly, we assessed significant internal
                      controls and NNSA's implementation of the Government
                      Performance and Results Act of 1993 and determined that it
                      had not established performance measures for information
                      technology project management. Because our evaluation was
                      limited, it would not have necessarily disclosed all internal
                      control deficiencies that may have existed at the time of our
                      evaluation. We did not rely on computer-processed data to
                      satisfy our objectives. An exit conference was held with
                      Department officials on September 9, 2009.



________________________________________________________________
Page 13                            Objective, Scope, and Methodology
Appendix 2

                                    RELATED REPORTS

   Special Report "Management Challenges at the Department of Energy" (DOE/IG-0782,
    December 2007). Based on work performed over the past year, the report identified both
    cyber security and project management as two of the most serious challenges facing the
    Department of Energy (Department). Over the past few years, the area of "information
    technology (IT)," which encompassed a broad range of IT contracts, programs, and
    security, had been classified as a management challenge. Recently, threats to the
    Government's information systems have risen to become a national security risk. As a
    result of these risks and in light of recent efforts to intrude into the Department's systems,
    we have categorized Cyber Security as a significant management challenge. In addition,
    for several years, the Office of Inspector General, the Government Accountability Office,
    and the Department itself have designated project management as a high-risk area
    vulnerable to waste, fraud, and abuse. In numerous cases, Department projects have been
    completed behind schedule and exceeded established budgets. In recent years, the
    Department, in responding to identified weaknesses in the area of Project Management,
    has sought to improve the discipline and structure of project performance. However, due
    to a variety of reasons, our reviews continue to highlight concerns in the area of Project
    Management.

   The Department's Efforts to Implement Common Information Technology Services at
    Headquarters (DOE/IG-0763, March 2007). The audit found that the Department had
    not fully achieved the goals and objectives envisioned by the original Department of
    Energy Common Operating Environment initiative. These problems occurred because
    officials responsible for implementation did not always follow Department and Federal
    project management practices, such as developing formal migration plans and conducting
    requirements analyses. In addition, procedures relating to user account termination were
    not adequate. As a consequence, the Department was unable to complete the
    Headquarters conversion within established timeframes and is unlikely to realize
    originally anticipated cost savings.

   The National Nuclear Security Administration's Implementation of the Federal
    Information Security Management Act (DOE/IG-0758, February 2007). The audit
    identified a number of deficiencies that exposed critical unclassified systems to an
    increased risk of compromise. These weaknesses included incomplete or inadequate
    system certification and accreditation; weak continuity of operations planning; and,
    unresolved system control deficiencies. We found that NNSA did not always properly
    implement its own guidance as well as Departmental and Federal cyber security
    requirements. In addition, NNSA had not performed regular monitoring activities
    essential to evaluating the adequacy of cyber security program performance. As a
    consequence, NNSA's unclassified information systems and networks and the data they
    contain remain at risk of being compromised, including the possible unlawful diversion
    of operational data, personally identifiable information, or other critical information.

   Telecommunications Infrastructure (DOE/IG-0537, December 2001). The audit
    disclosed that duplicative data transmission infrastructures existed across the
    Departmental complex. These problems occurred because the Department had not
________________________________________________________________
Page 14                                           Related Reports
Appendix 2 (continued)

  developed and implemented a coordinated approach to the acquisition and use of
  telecommunications equipment and services. Further, the Department had not adopted a
  comprehensive set of performance measures and incentives which would have
  encouraged both Federal employees and contractors to obtain necessary
  telecommunication capabilities as cost effectively as possible. As a consequence, the
  Department annually spends at least $4 million more than necessary to operate and
  maintain its telecommunications infrastructure.




________________________________________________________________
Page 15                                           Related Reports
Appendix 3




___________________________________________________________________
Page 16                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 17                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 18                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 19                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 20                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 21                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 22                                         Management Comments
                                                             IG Report No. DOE/IG-0823

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
